  February 15, 2005




Financial Management
Existence of U.S. Army Corps of
Engineers Buildings and Other
Structures
(D-2005-035)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.osd.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms
CEFMS                 Corps of Engineers Financial Management System
COEMIS                Corps of Engineers Management Information System
DoD FMR               Department of Defense Financial Management Regulation
GAAP                  Generally Accepted Accounting Principles
GAO                   Government Accountability Office
DoD IG                Department of Defense Inspector General
PP&E                  Property, Plant, and Equipment
REMIS                 Real Estate Management Information System
RSSI                  Required Supplemental Stewardship Information
SFFAS                 Statement of Federal Financial Accounting Standards
USACE                 U.S. Army Corps of Engineers
              Department of Defense Office of the Inspector General
Report No. D-2005-035                                                  February 15, 2005
   (Project No. D2004FI-0037)


          Independent Examination of the Existence of U.S. Army
            Corps of Engineers Buildings and Other Structures

                                Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers and
Department of Defense personnel responsible for the financial reporting and
accountability of buildings and other structures should read this report. The report
discusses the accuracy of assertions about the existence of buildings and other structures
and the related transactions reported in the FY 2003 U.S. Army Corps of Engineers,
Civil Works, Financial Statements.

Background. General Property, Plant, and Equipment was the largest category of assets
reported on the U.S. Army Corps of Engineers, Civil Works, Financial Statements for the
fiscal years ending September 30, 2004 and 2003. Buildings and other structures
comprised $18.3 billion of the $30.9 billion reported as General Property, Plant, and
Equipment in FY 2003, and $16.1 billion of the $28.4 billion reported as General
Property, Plant, and Equipment in FY 2004. Buildings and other structures include all
buildings, structures, and other facilities affixed to U.S. Army Corps of Engineers land in
the continental United States, Alaska, and Hawaii. Assertions are representations by
management that are embodied in the financial statements. This is the first in a series of
reports related to management assertions by U.S. Army Corps of Engineers on Civil
Works buildings and other structures.

We performed this examination to verify the value for buildings and other structures on
the FY 2003 U.S. Army Corps of Engineers, Civil Works, Financial Statements. The
U.S. Army Corps of Engineers agreed that we would perform the procedures to support
the establishment of beginning balances for the audit of the Principal U.S. Army Corps of
Engineers, Civil Works, Financial Statements for the Fiscal Years Ending September 30,
2004 and 2003.

Results. U.S. Army Corps of Engineers misreported the existence of 164 of
1,211 sampled assets, with a net book value of $594.9 million as of June 30, 2003, as
buildings and other structures on its Civil Works Balance Sheet. U.S. Army Corps of
Engineers also misreported 357 bank stabilization assets, with net book value of
$1.3 billion, as structures. The misreported structures did not meet the accounting
standards contained in the Statement of Federal Financial Accounting Standards No. 6
and the DoD Financial Management Regulation. As a result, the assertions about the
physical existence of U.S. Army Corps of Engineers buildings and other structures were
inaccurate. Until the inaccuracies are corrected, the FY 2004 Civil Works financial
statements are materially misstated, and U.S. Army Corps of Engineers is precluded from
gaining a favorable audit opinion. U.S. Army Corps of Engineers should take actions to
correct errors identified in this report and direct a one-time inventory of all buildings and
other structures to correct errors at field sites not reviewed. (See the Finding section of
the report for the detailed recommendations.)

Management Comments and Audit Response. The Commander of the U.S. Army
Corps of Engineers concurred with the finding and recommendations and stated that an
information paper addressing corrective actions to the buildings and other structures
accounts had been developed. He also stated that the land used for wildlife was acquired
with the intent to construct other General Property, Plant, and Equipment assets.
Therefore, the U.S. Army Corps of Engineers considered the land as common grounds to
the other General Property, Plant, and Equipment assets and would transfer the land
assets to the land improvements account instead of reporting them as stewardship land.
We reconsidered this accounting treatment and determined it to be an acceptable
approach. Consequently, we updated the finding and recommendation. (See the Finding
section for a discussion of management comments and the Management Comments
section of the report for a complete text of the comments.)

Management Actions. During this independent examination, U.S. Army Corps of
Engineers personnel corrected 11 of the 164 errors in the buildings and other structures
accounts. U.S. Army Corps of Engineers also reclassified bank stabilization assets at the
New Orleans, Memphis, and Vicksburg districts which accounted for the majority of the
$2.2 billion reduction in net book value on the FY 2004 Civil Works Balance Sheet. In
addition, the U.S. Army Corps of Engineers issued Engineer Circular 405-1-2 in
March 2004 and additional guidance related to bank stabilization assets. (See the
Finding section for a complete discussion of the management actions.)




                                              ii
Table of Contents

Executive Summary                                                           i

Background                                                                 1

Objective                                                                  1


Finding
     USACE Assertions on the Existence of Buildings and Other Structures    2

Appendixes
     A.   Scope and Methodology                                            14
     B.   Prior Coverage                                                   16
     C.   Glossary                                                         17
     D.   Existence Discrepancies                                          18
     E.   Retirement Cycle of Structures                                   24
     F.   COEMIS to CEFMS Conversion Process                               25
     G.   Report Distribution                                              27


Management Comments
     U.S. Army Corps of Engineers                                          29
Background
           We performed an examination attestation to establish beginning balances for the
           audit of the Principal U.S. Army Corps of Engineers (USACE), Civil Works,
           Financial Statements for the Fiscal Years Ending September 30, 2004 and 2003.
           USACE reports General Property, Plant, and Equipment (PP&E) as an asset line
           item on the Civil Works Balance Sheet. For FY 2003, the net book value of
           PP&E was $30.9 billion. Buildings and other structures1 comprised $18.3 billion
           of the total PP&E. For FY 2004, the net book value of PP&E was $28.4 billion.
           Buildings and other structures comprised $16.1 billion of the total PP&E. The net
           book value represents the difference between the historical acquisition (book) cost
           and the associated accumulated depreciation of the assets. As of September 30,
           2003, USACE had about 40,000 structures located at about 1,273 field sites in the
           continental United States, Alaska, and Hawaii.

           USACE provided the universe of structures contained in the Corps of Engineers
           Financial Management System (CEFMS) as of June 30, 2003, that supported the
           amounts reported on the Balance Sheet. From this universe, those structures
           identifiable as bank stabilization assets were removed, based on the
           recommendations in the Department of Defense Inspector General (DoD IG)
           Report No. D-2004-017, “Reliability of Construction-In-Progress in the
           U.S. Army Corps of Engineers, Civil Works, Financial Statements,” November 7,
           2003. Structures with a zero dollar book value were also removed (because they
           no longer had an impact on the financial statements) and were tested as part of the
           completeness assertion. The remaining universe of structures was statistically
           sampled to test USACE assertions about existence or occurrence, rights and
           obligations, valuation or allocation, and presentation and disclosure. To test the
           completeness assertion, we selected structures that were observed at the visited
           field sites and determined whether they were accurately reported in CEFMS. We
           also tested a judgmental sample of zero dollar book value transactions to ensure
           that they were reported properly. This report relates to the USACE management
           assertion about the existence of Civil Works structures.


Objective
           The objective of this attestation was to verify the buildings and other structures
           portion of the General PP&E line item and related note disclosure to the
           FY 2003 Balance Sheet. We performed the procedures in accordance with
           generally accepted government accounting standards incorporating financial audit
           and attestation standards. See Appendix A for a discussion of the scope and
           methodology, Appendix B for prior coverage related to the objective, and
           Appendix C for a glossary of terms used throughout the report.




1
    In this report, the term “structures” includes buildings and other structures unless otherwise specified.



                                                         1
            USACE Assertions on the Existence of
            Buildings and Other Structures
            USACE misreported the existence of 164 of 1,211 sampled assets, with
            net book value of $594.9 million as of June 30, 2003, as structures on its
            Civil Works Balance Sheet. USACE also misreported 357 bank
            stabilization assets, with a net book value of $1.3 billion, as structures.
            The misreported items did not meet accounting standards. USACE
            personnel did not follow established procedures to determine whether:

                    •   a tangible structure existed in a condition consistent with the
                        supporting documentation,

                    •   property identification codes were properly classified,

                    •   impairments to structures were identified and retirement
                        transactions were recorded in CEFMS in the period that the
                        impairment occurred, and

                    •   structures that no longer provided an operational service to
                        USACE were retired from CEFMS.

            Physical inventories conducted by district personnel neither identified nor
            reconciled structures that failed the existence assertion. As a result, the
            assertions about the physical existence of USACE buildings and other
            structures were inaccurate. Until the inaccuracies are corrected, the
            FY 2004 Civil Works financial statements are materially misstated, and
            USACE is precluded from gaining a favorable audit opinion.


Criteria
     Generally Accepted Accounting Principles (GAAP). GAAP requires that
     expenses be recorded in the same accounting period as the revenue they helped to
     earn. GAAP further states that structures should be recorded at book cost,
     including all costs necessary to bring the asset to its location in working
     condition. That cost, less salvage value, should be depreciated over the estimated
     useful life of the structure. Structures approved for disposal should be retired in
     the general ledger accounts and reported at the lesser of their book value or fair
     market value, less costs to sell. GAAP describes assertions as representations by
     management that are embodied in financial statement components. They can be
     either explicit or implicit and can be classified according to the following broad
     categories: existence or occurrence, completeness, rights and obligations,
     valuation or allocation, and presentation and disclosure. Assertions about
     existence or occurrence address whether the assets or liabilities of the entity exist
     on a given date and whether recorded transactions occurred during a given period.

     Statement of Federal Financial Accounting Standards (SFFAS). SFFAS
     No. 6, “Accounting for Property, Plant, and Equipment,” June 1996, contains


                                           2
     accounting standards for federally owned PP&E. General PP&E is defined as
     tangible assets that:

         •   have an estimated useful life of 2 or more years,

         •   are not intended for sale in the ordinary course of business, and

         •   are intended to be used or available for use by the entity.

     General PP&E should be removed from the accounting records along with the
     associated accumulated depreciation/amortization, if prior to disposal, retirement,
     or removal from service, it no longer provides a service to the operations of the
     entity. SFFAS No. 8, “Supplementary Stewardship Reporting,” October 1990,
     sets guidelines in accounting for Stewardship PP&E, categorized as either
     heritage assets, Federal mission PP&E, or stewardship land. Heritage assets are
     PP&E of natural, cultural, educational, or artistic significance. The costs of
     acquiring, constructing, improving, reconstructing, or renovating heritage assets
     must be expensed in the period incurred when determining the net cost of
     operations. Stewardship land is land not acquired for, or in connection with,
     items of General PP&E. SFFAS No. 6 deems all stewardship information as
     required supplemental stewardship information (RSSI).

     Department of Defense Financial Management Regulation (DoD FMR). The
     DoD FMR, volume 4, “Accounting Policy and Procedures,” chapter 6, “Property,
     Plant, and Equipment,” August 2000, contains the DoD accounting standards for
     PP&E. General PP&E consists of tangible assets, as defined in SFFAS No. 6,
     including assets acquired through capital leases, property owned by the reporting
     entity (even though it may be in the possession of others), land (other than
     stewardship land), and land rights. Real property and stewardship land assets
     must be inventoried at least every 5 years, and the results of the physical
     inventories must be reconciled to the property accountability and financial
     records. Adjustments may be required for any unrecorded physical changes such
     as removals, additions, or modifications of the PP&E that were not previously or
     properly recorded.


FY 2003 Financial Statements Assertions
     USACE management is responsible for the fair presentation of its Civil Works
     financial statements and RSSI. They are also responsible for establishing and
     maintaining a system of internal control. The USACE “Management
     Representation Letter for the Civil Works FY 2003 Financial Statements,”
     December 3, 2003, asserted that:

             •   representations were presented fairly in accordance with GAAP;

             •   no material transactions were improperly recorded in the accounting
                 records underlying the financial statements or disclosed in the notes to
                 the financial statements;

             •   long-lived assets (structures) and certain identifiable intangibles were
                 reviewed and a determination was made that whenever events or


                                           3
               changes in circumstances caused impairments, the reported amounts of
               the assets were accounted for, appropriately recorded, and adjusted;
               and

           •   provisions were made to reduce excess or obsolete inventories to their
               estimated net realizable value.

    The letter also stated that in FY 2003 a material weakness existed in control over
    additions and deletions to structures, and that corrective actions were ongoing.


Sampling Methodology
    Sample Selection. We performed a statistical sample to determine the accuracy
    of the financial data reported on the structures portion of the General PP&E line
    item on the FY 2003 USACE, Civil Works, Financial Statements. USACE
    provided a population from CEFMS that supported the amount reported on the
    Civil Works Balance Sheet as of June 30, 2003. A distinct property identification
    code represented each structure. We tested a statistical sample of 1,211 property
    identification codes at 43 project sites for accuracy of the assertions made on the
    financial data. We will report projections related to potential misstatements in the
    structures accounts in a future report on the valuation of the USACE structures.

    Existence Testing Conducted. To determine the accuracy of the financial data,
    we tested each sample item for the existence assertion. Based on physical
    observation and available documentation, we conducted tests to determine
    whether structures:

           •   physically existed as of June 30, 2003 in a condition consistent with
               the supporting documentation,

           •   were properly classified in CEFMS as either a building (property
               category code 05) or other structure (property category code 10),
           •   experienced any impairments that should be recognized, and

           •   were being used for their intended or another legitimate purpose.




                                         4
Existence of Structures
     Of the 1,211 items sampled, 164 sample items with a book cost of $888.1 million
     and a net book value of $594.9 million as of June 30, 2003, failed the existence
     assertion. A structure failed the existence assertion if it failed one or more of the
     existence tests. These errors caused the FY 2004 and FY 2003 financial
     statements to be overstated and resulted in a material misstatement of the General
     PP&E portion of the FY 2004 USACE, Civil Works, Balance Sheet. The
     following table shows the number and book value of property identification codes
     that failed, by type of existence test conducted.

                            Existence Test Failures as of June 30, 2003
      Existence Test                   Number of Errors         Book Value (millions)
      Physical Existence                    65                        $267.5
      Classification                        71                        $324.7
      Impairment                            12                        $ 0.4
      Usefulness                            16                        $ 2.3
       Total                                   164                      $594.9


     Appendix D contains a complete list of property identification codes that failed
     the existence testing. We calculated the dollar amount of misstatements in book
     cost and book value as of June 30, 2003. These amounts will be used in the
     subsequent report on the valuation of structures to project the potential
     misstatement on the financial statements as of June 30, 2003, and the impact on
     the FY 2004 ending balances.

     Physical Existence. Sixty-five property identification codes, with a net book
     value of $267.5 million, did not represent structures that physically existed as of
     June 30, 2003. At 16 of the 43 field sites, we identified 33 structures that had
     existed at one time but no longer existed as of June 30, 2003. We also identified
     32 property identification codes for structures that either never existed or
     represented unassigned costs that needed to be either distributed to existing
     structures or expensed.

             Unrecorded Disposal Actions. Although USACE had procedures to
     retire and dispose of structures that no longer existed, field site and district
     personnel did not follow the procedures on 33 of the sampled structures. See
     Appendix E for a chart of the USACE retirement cycle. Field site personnel
     either did not request district approval to dispose of a structure, or did not timely
     inform their district office that retirement and disposal actions had been taken. In
     addition, although district real estate personnel sometimes conducted inventories
     at these field sites, they did not properly identify structures that no longer
     physically existed or take actions to properly retire the structures from CEFMS.
     The districts’ failure to remove property identification codes for nonexistent
     structures from CEFMS resulted in the continued accumulation of depreciation
     expense and the misreporting of the value of structures in their financial records.
     The following are examples of structures not disposed of in CEFMS as of
     June 30, 2003.


                                           5
       •   Property identification code RR-29065 was listed in CEFMS as a
           playground structure with a book cost of $121,070.14 at Ray Roberts
           Lake, Texas. On December 10, 1999, the Texas Parks and Wildlife
           Department requested approval to remove and replace this playground
           because it no longer met safety standards. The Department was
           subsequently granted approval to remove the asset on February 16,
           2000. The asset was removed from the property but the property
           identification code had not been retired and disposed of in CEFMS.

       •   Property identification code BB151-9116 was listed in CEFMS as an
           office building with a book cost of $650,522. A flood had severely
           damaged the office building in 1995, and USACE demolished the
           building in 1997. Although real estate personnel had done several
           inventories, the property identification code for the nonexistent asset
           was never identified and retired and disposed of in CEFMS.

       •   Property identification codes COCHIT-7045, COCHIT-7046, and
           COCHIT-7047 had been removed from the Cochiti Lake,
           New Mexico. According to a “Finding of Fact” memorandum on
           June 20, 2001, the real estate division chief recommended that these
           assets be removed from service because their condition had
           deteriorated. On June 21, 2001, this recommendation was approved
           and a moving company was hired to remove the three residences, in
           their entirety, between November 2001 and February 2002. As of
           June 30, 2003, the assets had not been retired or disposed of in
           CEFMS.

       •   St. Louis District, St. Louis, Missouri, had established two property
           identification codes (BB151-6870 and BB151-6899) with a combined
           book cost of $285 million as a coffer dam at the Melvin Price Lock
           and Dam, Alton, Illinois. The lockmaster stated that the coffer dam
           had once existed around the current lock and dam structures but
           USACE tore down the coffer dam when the new lock and dam
           structures were placed in service. The district had taken no actions to
           retire and dispose of these assets in CEFMS.
        Structures Duplicated in CEFMS or Never Constructed. During the
process of converting from the Corps of Engineers Management Information
System (COEMIS) to CEFMS, 10 USACE districts erroneously placed in service
22 sampled structures that either were duplicates of previously established
structures or had never been constructed. See Appendix F for a description of the
conversion process. In nine cases, a structure had already been created in
CEFMS, and the new property identification code created a duplicate asset. For
example, property identification code L&D02-14892 was identified as the dikes
located in Pineville, Louisiana, and was placed in service subsequent to the
conversion. However, this structure had been previously placed in service during
the conversion process. The Vicksburg District, Vicksburg, Mississippi,
recognized this error and corrected it on August 15, 2003.

In 13 other cases, property identification codes were placed in service for
structures that were never constructed. For example, property identification codes


                                     6
          RR-29056, RR-29108, and RR-29114 were structures listed on the master plan for
          Ray Roberts Lake, but the structures were never constructed. When personnel at
          the Fort Worth District, Fort Worth, Texas, developed their structure list to use
          for conversion, they used the master plan and distributed the COEMIS feature
          costs of a recreational park to assets on the plan even though some of the assets
          on the plan had never actually been constructed. This resulted in the
          misallocation of costs to each individual structure under feature code 14,
          “Recreational Facilities,” during the conversion process. The district needs to
          delete these nonexistent assets from its spreadsheet and reallocate the conversion
          costs to the assets that actually existed at the time of conversion.

                   Unassigned Costs Established as Structures. In 10 instances, USACE
          districts erroneously capitalized excavation, labor, landscaping, maintenance, and
          repair costs as separate property identification codes. These costs should have
          been expensed unless they were part of the costs needed to bring a tangible asset
          into service and were assigned to that asset. The following are examples of
          erroneously capitalized costs.

                  •   Property identification codes L&D01-11482 and L&D01-11498 were
                      hired labor that was not assigned to a specific tangible asset.

                  •   Property identification code RBR-18640 was repair costs to a road in
                      Elbert County, Georgia.

                  •   Property identification code TTDIVI-27800 was excavation costs at
                      the Tennessee-Tombigbee Divide Cut, Alabama, which did not create
                      a tangible asset.

                  Conclusion. USACE personnel must remove the 65 structures that did
          not physically exist from CEFMS. A physical inventory is required to ensure that
          a tangible asset exists for each property identification code that is placed in
          service in CEFMS. Districts must determine whether they allocated costs to
          nonexistent structures during the conversion from COEMIS to CEFMS. If they
          did, they must make required adjustments.

          Classification. USACE personnel at 16 districts had misclassified 71 property
          identification codes, with a net book value of $325 million, as structures. These
          sample items should have been assigned to other general ledger accounts either as
          construction in progress, equipment, land and improvements to land, or
          stewardship assets. Districts misclassified assets because they did not comply
          with guidance for converting assets from COEMIS to CEFMS2 or because other
          USACE guidance did not adequately define how to classify specific types of
          assets. Misclassification of assets resulted in the misstatement of RSSI and one or
          more lines on the FY 2003 Civil Works Balance Sheet. In addition, districts did
          not properly differentiate between buildings and other structures.

                  Construction in Progress. USACE districts placed in service
          six structures at Libby Dam, Libby, Montana, and two structures at Lower
          Monumental Lock and Dam, Starbuck, Washington, that were not fully
          constructed. According to the DoD FMR, volume 4, chapter 6, the cost to

2
    USACE Real Estate Directive Number 13.



                                               7
construct an asset must be recorded as construction in progress until the asset is
completed and available for use. Placing the structures in service before
completion caused depreciation to begin early, and the book value of General
PP&E to be understated by $1.4 million.

        Equipment. USACE districts misclassified five equipment assets as
structures. The equipment assets were four portable sliding boat ramps at Harry
S. Truman Lake, Warsaw, Missouri, and boundary monuments marking the
reservoir boundaries at Lake Sharpe, South Dakota. These items should have
been classified as personal property because they are portable and easily moved.

        Land. USACE districts incorrectly classified each of 37 land and land
improvement assets as either a building or other structure. These 37 structures
involved the clearing or improvement of land assets in preparation for building
canals, dams, locks, parks, and reservoirs or were improvements to the land for
the benefit of wildlife. Because land does not depreciate, misclassifying land as
structures causes the PP&E line item to be understated by the amount of
accumulated depreciation. The major category of misclassified land assets was
22 reservoirs, with a book cost of $105.9 million, which were erroneously
capitalized as structures. Cost data entered into CEFMS under the property
identification codes for these structures were associated with the preparation of
the land for the creation of the reservoirs. These costs were classified as feature
code 03, “Reservoirs,” but should have been classified as part of land cost in
accordance with USACE Real Estate Directive Number 13. Because these assets
had depreciated, the General PP&E line was understated by $17.9 million.
Additional examples of land and land improvements classified as structures
follow.

           •   Property identification codes FAL-15886, FAL-18493,
               FAL-18749, and FAL-19328 were costs incurred in clearing the
               land in preparation of the recreational parks at Falls Lake,
               North Carolina.

           •   Property identification codes CO-32073, TTWILD-27604,
               LOSTC-8763, and MILLC-3835 were costs incurred to support
               wildlife at the USACE-owned sites.
       These items should be treated either as improvements to land and not
depreciated or as part of the cost to bring a tangible asset into service, and
included in the book cost of that asset.

        Stewardship. USACE districts incorrectly classified 21 stewardship
assets as structures. The inclusion of heritage assets and stewardship land within
the buildings and other structures accounts caused the General PP&E line to be
overstated by $202.2 million because costs associated with stewardship assets
should have been expensed in the period the costs were incurred. The following
are examples of incorrectly classified assets.

       •   Property identification codes RBR-17287 and RBR-17291 were an
           historical barn and lean-to at the Richard B. Russell Dam, Georgia,
           that were listed in COEMIS as feature code 18 (Historical Resource


                                     8
           Preservation). Because of their historical significance, the structures
           should have been reported as heritage assets and their costs expensed
           within the period incurred.

       •   Seventeen structures were bank stabilization costs associated with
           maintaining rivers, and should have been expensed and reported as
           RSSI, not capitalized as structures.

         Classification of Buildings and Other Structures. Districts did not
properly differentiate between buildings and other structures. Engineer
Circular 405-1-2, “Project Inventory Management, Accountability, and
Documentation,” March 1, 2004, defines a building as a facility constructed on a
piece of land, covered by a roof, enclosed by walls, and usually with flooring.
According to the DoD FMR, volume 4, chapter 6, the total useful life of a
building is 40 years while the useful life of other structures and utilities is
20 years. The districts misclassified 68 out of 1,211 sample structures.
Misclassification of the structures caused the establishment of the incorrect useful
life, a miscalculation of depreciation, and a misstatement of the book value on the
Balance Sheet.

        Conclusion. USACE personnel must take steps to reclassify and transfer
the 71 misclassified structures to the appropriate general ledger accounts. To
ensure that records show the proper classification of PP&E assets, USACE
policies and procedures must clearly identify the classification criteria for each
type of General PP&E and stewardship asset. In addition, real estate and finance
and accounting personnel must be adequately trained to identify the proper
classification.

Impairments. District personnel did not identify impairments valued at about
$400,000 on 12 structures. An asset should be considered impaired when the
book value of a long-lived asset exceeds its fair value and is not recoverable.
When the book value of a structure is not recoverable, an impairment loss should
be recorded by deducting the amount of impairment from the structure’s book
cost and book value in CEFMS. Failure to record impairments causes an
overstatement in the financial statements. Examples of structures with
unrecognized impairments were:
       •   two parking lots at Canyon Lake, Texas, that were unusable and fully
           covered by grass and weeds;

       •   a road at Cochiti Lake, New Mexico, that was completely submerged
           under the lake; and

       •   an overlook structure at Hugo Lake, Oklahoma, with damage to three
           of the six wooden support beams.

USACE personnel must take steps to identify the extent of the impairment and
retire and dispose of the impairment amount in CEFMS for each of the




                                     9
     12 structures. Field site and real estate personnel must be trained to identify
     whether an impairment to a structure exists and what actions must be taken to
     report and record an impairment loss.

     Usefulness. District personnel did not identify 16 structures, valued at
     $2.3 million, that existed but were no longer used for a legitimate purpose and
     should have been retired from service. SFFAS No. 6 states that if the structure no
     longer provides a service to the operation of the entity, it should be removed from
     the financial records. USACE continued to report structures in service that were
     abandoned or located in closed locations. These structures were not used because
     they were unavailable for use, out-of-date, or no longer cost-efficient to maintain.
     The following are examples of structures that no longer served a useful purpose.

            •   A double privy at the Thibault Point recreation, Missouri, was
                uprooted due to flood damage and used as scrap to repair other
                structures.

            •   A shelter used to house equipment at Grant Pass, Oregon, was not
                used because a different building served that purpose.

            •   Structures located at Salt Creek Park, Oklahoma, were unavailable for
                use because the park had been closed for 2 years with no plans of
                reopening.

            •   Structures at Gilham Lake, Arkansas, were not used because they were
                out-of-date. The park had switched to public water and sewage, so the
                sewage effluent system and the water treatment facility were no longer
                needed.

            •   An entrance station at the Guyandotte Camp, Alabama, was closed
                because it was not cost-effective to operate. The entrance station was
                locked and had been replaced with lock boxes to collect campground
                fees. It was more cost-effective to use the lock boxes than to pay a
                contractor to man the station.

     USACE personnel must take steps to retire the 16 structures from CEFMS that
     were no longer being used for a legitimate purpose.


Previously Identified Control Issues
     DoD IG Report No. D-2004-063, “Controls Over U.S. Army Corps of Engineers
     Buildings and Other Structures,” March 26, 2004, identified that sufficient
     controls were not in place to ensure that USACE buildings and other structures
     were properly added to and deleted from CEFMS. We recommended that
     USACE conduct proper inventories and update Engineer Regulation 405-1-12,
     “Real Estate Handbook,” to ensure that USACE establishes and enforces
     appropriate procedures for recording structures in CEFMS. We also
     recommended that USACE train field site personnel on the new USACE policies
     and procedures.


                                          10
USACE Corrective Actions
           On March 1, 2004, in response to recommendations in DoD IG Report
           No. D-2004-063, USACE headquarters issued Engineer Circular 405-1-2, which
           provides updated guidance on inventory management, accountability, and
           documentation of structures. The circular is valid for 1 year and will be updated
           as needed. The circular will become chapter 16 to Engineer Regulation 405-1-12.
           USACE should review the existence issues we identified and ensure that the final
           regulation incorporates guidance to eliminate the existence issues. If USACE
           properly implements, trains, and enforces its own guidance, the existence issues
           identified in our report should be remedied and prevented in the future.

           Based on a recommendation contained in DoD IG Report No. D-2004-017,
           USACE implemented Information Paper No. 2, “Proper Classification of Project
           Costs as either Construction-in-Progress (CIP) or Expense.” This paper stated
           that based on SFFAS No. 8, chapter 3, “Federal Mission Property, Plant, and
           Equipment,” USACE determined that the proper treatment of bank stabilization
           projects was to report them in RSSI. Revetments, riprap, and dikes are examples
           of these types of projects. USACE also directed the removal of bank stabilization
           costs from the buildings and other structures accounts.3 USACE personnel were
           instructed to fully depreciate, retire, and dispose of the bank stabilization assets.
           The reclassification of revetments at the New Orleans, Memphis, and Vicksburg
           Districts accounted for a majority of the $2.2 billion reduction in net book value
           of buildings and other structures reported in Note 10 to the FY 2004 Civil Works
           financial statements.

           During the course of our review, USACE took actions to correct some of the
           164 sample errors we identified. As of May 21, 2004, the Albuquerque District,
           Albuquerque, New Mexico; Kansas City District, Kansas City, Missouri; Little
           Rock District, Little Rock, Arkansas; Savannah District, Savannah, Georgia; and
           Vicksburg District, Vicksburg, Mississippi; personnel corrected 11 of 164 sample
           items identified in error. However, only two of the corrected items, with a net
           book value of $1.0 million, were corrected prior to September 30, 2003.
           Therefore, the amount reported on the FY 2003 Civil Works financial statements
           in Note 10 for buildings and other structures was misstated by a net book value of
           $1.9 billion. In July 2004, USACE issued Information Paper No. 10, “Buildings
           and Other Structures,” that addresses corrective actions districts should
           implement to resolve the issues identified in this report. These corrective actions
           represent positive steps toward achieving an accurate structure balance in
           CEFMS. We will assess the implementation of these actions during a follow-up
           attestation in FY 2005.


Summary
           USACE assertions on the physical existence of structures reported in CEFMS
           were inaccurate. The inaccuracies will result in a material misstatement of the
3
    Prior to selecting a sample, we had removed 357 property identification codes identified as bank
    stabilization structures, with a net book value of $1.3 billion, from our universe. These property
    identification codes were misreported.



                                                       11
    FY 2004 Civil Works financial statements, unless corrective actions are taken.
    Recording structures in CEFMS that no longer existed, were impaired, or no
    longer served a useful purpose overstated the General PP&E line of the Balance
    Sheet and caused the financial statements to not be presented fairly in accordance
    with GAAP. Misclassified structures affect the total assets, net position, and
    expenses reported on the USACE financial statements. The problems with the
    164 sampled structures and 357 misclassified bank stabilization assets resulted in
    the net book value of the buildings and other structures accounts being overstated
    by $1.9 billion. Similar existence problems may affect property identification
    codes at projects that were not sampled, resulting in a greater misstatement.
    Therefore, USACE must correct the 164 identified errors, expense bank
    stabilization costs, and perform a one-time physical inventory to review its
    remaining structures for similar types of existence errors. USACE must continue
    to review and update Engineer Regulation 405-1-12 to prevent future errors.
    Once updated policies are implemented, USACE must provide and document
    training of district personnel and ensure that all districts consistently implement
    the new policies and procedures to maintain accurate structure balances in
    CEFMS.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of finalizing the field work, we revised
    the total number and categories of existence errors in the finding and
    Recommendation 1 to adjust for additional errors and correct previously
    misreported errors. The revision caused the total number of errors to increase
    from 161 to 164 sampled structures with a net book value misstatement of
    $594.9 million. We also revised Appendix D to reflect the following changes.

       •   We added four sampled structures (property identification codes
           ARLD13-48781, LOMO-6842, ORLRCB-23584, and IHRBR-4301) as
           existence errors.

       •   We removed one sampled structure (property identification code
           MORIVR-37015) because it was not an existence failure.

       •   We recategorized six sampled structures. Property identification codes
           LBDLKO-16353 and LBDLKO-16357 were moved from the
           “classification” to the “physical existence” error category, and property
           identification codes CO-32073, LOSTC-8763, MILLC-3835, and
           TTWILD-27604 were moved from the “stewardship assets” to the “land
           assets” error category.

    We recommend that the Chief of Engineers, U.S. Army Corps of Engineers:

            1. Take immediate actions to resolve the 164 existence errors
    identified in Appendix D, including a reassessment of the conversion process



                                        12
at sites that assigned costs to nonexistent assets at the time of conversion to
the Corps of Engineers Financial Management System.

Management Comments. The Commander of USACE concurred and stated that
the actions taken in response to Information Paper No. 10 will correct the
existence issues. However, USACE did not agree that wildlife improvements
should be reclassified as stewardship land. Instead, USACE stated that these land
improvements will be transferred to general ledger account code 1712, “land
improvements,” because the land was acquired for, or in connection with, General
PP&E assets.

Audit Response. Management comments are responsive. We agree that the
treatment of wildlife improvements as land improvements is in accordance with
generally accepted accounting principles. We restated the discussion of these
assets in the finding and recategorized the error.
       2. Take actions to expense all bank stabilization assets from the
buildings and other structures accounts within the Corps of Engineers
Financial Management System.

Management Comments. The Commander of USACE concurred and stated that
the actions contained in Information Paper No. 10 will correct the existence
issues.

        3. Direct and document a one-time physical inventory of all property
identification codes classified as buildings and other structures. Specifically,
ensure that:

             a. A tangible asset exists in a condition consistent with
supporting documentation and is properly classified to the correct general
ledger accounts (for example, building, structure, land, equipment).

             b. Property identification codes determined to be physically
impaired or no longer in use are retired from the Corps of Engineers
Financial Management System.
Management Comments. The Commander of USACE concurred and stated that
Information Paper No. 10 directed a one-time inventory to correct these issues.

        4. Determine whether the new Engineer Circular 405-1-2, provides
detailed policy guidance to eliminate the existence errors identified in this
report. If not, incorporate changes to the final Engineer Regulation
405-1-12, chapter 16. Once final policies are implemented, provide training
to district personnel and ensure that the policies are implemented
consistently by all U.S. Army Corps of Engineer districts.

Management Comments. The Commander of USACE concurred and stated that
USACE management will review Engineer Circular 405-1-2 to ensure the policy
provides guidance to eliminate the existence errors identified. Changes made to
Engineer Circular 405-1-2 will be incorporated into Engineer Regulation 405-1-
12 and the Finance and Accounting System Training.




                                   13
Appendix A. Scope and Methodology
           We selected a statistical sample from a universe of 32,571 structures, valued at
           $16.7 billion, reported as buildings and other structures on the third quarter,
           FY 2003 Balance Sheet. Each structure was identified using a distinct property
           identification code. We used the sample to evaluate management assertions for
           existence or occurrence, rights and obligations, valuation or allocation, and
           presentation and disclosure. In this report, we address existence-related issues
           found during the sample. Projections related to any misstatement of the buildings
           and other structures accounts will be addressed in a future report. We reviewed a
           two-stage probability-proportional-to-size sample of USACE properties which at
           the second stage involved 1,211 of the 32,571 property identification codes. The
           probability-proportional-to-size sampling technique uses the dollar value of the
           asset as a selection criterion in the first stage, with higher probability for selecting
           the larger dollar value projects. The 1,211 sample items were located at 43 field
           sites within 18 USACE districts.1 We performed this examination from October
           2003 through July 2004 in accordance with generally accepted government
           auditing standards.

           We obtained from USACE the 39,852 individual property identification codes2
           that comprised the trial balance totals for general ledger account codes 1730
           (buildings) and 1740 (other structures) as of June 30, 2003. We determined that
           the property identification codes represented the amount reported in the trial
           balance as of June 30, 2003. We removed 357 identified revetment structures,
           valued at $1.3 billion, from our universe based on a recommendation contained in
           DoD IG Report No. D-2004-017, that these items should be expensed. We also
           removed 6,924 structures with zero reported book value from the universe
           because they did not have an impact on the financial statements. We statistically
           selected 1,211 property identification codes for review from the remaining
           universe of 32,571 structures.

           From October 2003 to April 2004, we visited 43 field sites located in 18 USACE
           districts. We developed procedures to test USACE management assertions about
           the existence of buildings and other structures and related transactions reported in
           the FY 2003 USACE, Civil Works, Financial Statements. We compared what
           was recorded in CEFMS to physical observation and available documentation to
           determine whether structures:

                    •   physically existed as of June 30, 2003,

                    •   were properly classified as either a building (property category
                        code 05) or other structure (property category code 10) in CEFMS,


1
    The sample involved selecting projects at the first stage and properties within them at the second stage.
    This “with replacement” sampling design allowed properties to be selected more than once. We drew 60
    first stage samples which involved 43 unique sites.
2
    USACE excluded assets that would later be removed to comply with the increased capitalization
    threshold.



                                                      14
       •   were retired when they had impairment events or changes in
           circumstances that indicated that the book value of the structure might
           not be recoverable, and

       •   were properly retired when they were not being used for their intended
           or another legitimate purpose.

Use of Computer-Processed Data. Although we relied on computer-processed
data from CEFMS and the Real Estate Management Information System
(REMIS), we did not evaluate the adequacy of the systems’ general and
application controls. Previous audits have identified general and application
control weaknesses and questioned the reliability of the CEFMS data. We were
able to reconcile the USACE trial balances as of June 30, 2003, and September
30, 2003, for the structures accounts within CEFMS by property identification
code for the corresponding periods. We evaluated data reliability related to the
sample items we reviewed by comparing information recorded in CEFMS with
source documentation and physical observations at USACE district and field
offices.

Use of Technical Assistance. We obtained assistance from the Operations
Research Branch, Quantitative Methods Division in the DoD IG in determining a
statistical sampling plan. Calculation of statistical projections will be reported in
a subsequent report.

Government Accountability Office (GAO) High-Risk Area. The GAO has
identified several high-risk areas in DoD. This report provides coverage of the
Defense Financial Management and Federal Real Property high-risk areas.




                                     15
Appendix B. Prior Coverage
    During the last 5 years, GAO and the DoD IG have issued several reports
    discussing the reporting of General PP&E on the USACE, Civil Works, financial
    statements. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.


GAO
    GAO Report No. GAO-03-42, “Financial Management: Survey of Capitalization
    Threshold and Other Policies for Property, Plant, and Equipment,” October 15,
    2002

    GAO Report No. GAO-02-589, “Information Security: Corps of Engineers
    Making Improvements, But Weaknesses Continue,” June 10, 2002

    GAO-01-89 Letter Report, “Financial Management: Significant Weaknesses in
    Corps of Engineers’ Computer Controls,” October 11, 2000


DoD IG
    DoD IG Report No. D-2004-063, “Controls Over U.S. Army Corps of Engineers
    Buildings and Other Structures,” March 26, 2004

    DoD IG Report No. D-2004-059, “Assets Depreciation Reported on the U.S.
    Army Corps of Engineers FY 2002 Financial Statements,” March 16, 2004

    DoD IG Report No. D-2004-032, “Independent Auditor's Report on the U.S.
    Army Corps of Engineers, Civil Works, Fiscal Year 2003 Principal Financial
    Statements,” December 3, 2003

    DoD IG Report No. D-2004-017, “Reliability of Construction-in-Progress in the
    U.S. Army Corps of Engineers, Civil Works, Financial Statements,” November 7,
    2003

    DoD IG Report No. D-2003-123, “Corps of Engineers Equipment Reporting on
    Financial Statements for FY 2002,” August 20, 2003

    DoD IG Report No. D-2003-043, “Independent Auditor's Report on the U.S.
    Army Corps of Engineers, Civil Works, Fiscal Year 2002 Principal Financial
    Statements,” January 1, 2003




                                      16
Appendix C. Glossary
   Accumulated Depreciation. The amount of depreciation expense that has been
   added over a period of time and calculated from the placed-in-service date of the
   asset.

   Acquisition (Book) Cost. Acquisition cost is the original purchase, construction,
   or development cost, net of (less) any purchase discounts. The cost of an asset
   includes all costs incurred to bring the asset to a form and location suitable for its
   intended use. It includes amounts paid to the prior owner or vendor, additional
   expenditures to place the asset in service (such as legal and recording fees,
   supervision and administration, engineer and design, interest during construction,
   labor, and transportation cost), or the fair market value of property acquired by
   transfer, trade-in, found on works, or donation.

   Book Value. The book (acquisition) cost less accumulated depreciation charged
   on the asset.

   Capitalization Threshold. The dollar value at which costs incurred will be
   added as capital expenditures to the Placed-in-Service accounts. All real property
   above the threshold, with an inherent useful life of 2 or more years, is capitalized.

   Feature. A group of assets grouped to facilitate accounting control.

   Improvement. A change to an existing asset that results in an increase of
   efficiency, durability, or capacity of the asset or a change in the asset’s useful life.

   Placed-in-Service Date. The date that an asset is physically complete and
   available for use. Assets are recognized when the title passes to the acquiring
   entity or when the asset is delivered to the entity or to an agent of the entity. It
   defines the start of the capitalization and depreciation expense process.

   Property Identification Code. A number that links the REMIS database with
   CEFMS. The property identification code is system generated by REMIS when
   information about a new asset is entered in the system.

   Property Phase. A stage in an asset’s life cycle. An asset can be transferred
   from construction in progress to placed in service (S), retirement (R), to disposal
   (D) over the course of the asset’s life.

   Straight Line. A method of depreciation that allocates the book cost of an asset
   equally over the course of the asset’s life.

   Useful Life. The estimated time period for an asset to provide its intended
   service. The concept recognizes the deterioration of items as they age.




                                         17
Appendix D. Existence Discrepancies
       Observations conducted at 43 field sites identified 164 structures that failed the
       existence testing. The following lists identify the problem found, the cause of the
       error, and the auditor determined misstatements in CEFMS as of June 30, 2003.
       An asterisk in the property identification code denotes a change from the draft
       report.

       Table D-1 identifies the 65 property identification codes that failed the existence
       testing because of errors related to their physical existence. These property
       identification codes failed because the structures either no longer existed or were
       never constructed, or they represented unassigned costs capitalized as assets.

                            Table D-1. Physical Existence
                                                        Misstated             Misstated
       Cause              District     Property ID      Book Cost            Book Value
Unrecorded Disposal    Albuquerque     COCHIT-7045        $    45,000.00     $   19,800.00
Unrecorded Disposal                    COCHIT-7046             45,000.00         19,800.00
Unrecorded Disposal                    COCHIT-7047             45,000.00         19,800.00
Unrecorded Disposal    Fort Worth      CN-25979                63,341.14         41,171.73
Unrecorded Disposal                    CN-25982                54,422.40         36,463.04
Unrecorded Disposal                    CN- 27314               63,403.54         42,480.60
Unrecorded Disposal                    RR-29065               121,070.14        111,608.26
Unrecorded Disposal    Kansas City     HST-29504               72,376.22         21,190.84
Unrecorded Disposal                    HST-29726               60,825.65         37,705.11
Unrecorded Disposal                    HST-29740              136,857.71         88,942.75
Unrecorded Disposal                    HST-36989               27,778.53         21,180.38
Unrecorded Disposal                    KNOPLS-28156            31,615.58         19,707.67
Unrecorded Disposal                    PERRY-29405             30,144.88          7,429.32
Unrecorded Disposal                    SMTHVL-30978            39,946.05         29,023.49
Unrecorded Disposal    Little Rock     GILHAM-44689            20,800.00         16,951.95
Unrecorded Disposal                    NRFORK-49974            21,867.00         12,566.88
Unrecorded Disposal    Omaha           SHARP-20634             94,937.24         69,433.66
Unrecorded Disposal    Portland        BONNE-6303               9,429.16          5,419.52
Unrecorded Disposal                    BONNE-7825               2,453.10          1,396.98
Unrecorded Disposal                    BONNE-9963             850,000.00        344,679.72
Unrecorded Disposal                    BONNE-9696           5,281,763.00      1,872,689.38
Unrecorded Disposal                    LOSTC-7197              15,360.00         11,749.28
Unrecorded Disposal    St. Louis       BB151-6870         283,997,725.00    231,457,681.04
Unrecorded Disposal                    BB151-6899           1,732,580.08      1,412,049.96
Unrecorded Disposal                    BB151-9116             650,522.00        409,823.66
Unrecorded Disposal    Walla Walla     GRANT-4586                 810.00            434.70
Unrecorded Disposal                    GRANT-4872                 207.00            144.21
Unrecorded Disposal                    IHRBR-4250               3,222.28          2,311.98
Unrecorded Disposal                    IHRBR-4274               3,222.28          2,311.98
Unrecorded Disposal                    IHRBR-4300               2,171.35          1,617.65




                                            18
                         Table D-1. Physical Existence (cont’d)
                                                          Misstated           Misstated
       Cause              District    Property ID        Book Cost           Book Value
Unrecorded Disposal                  IHRBR-5474                 930.00           692.85
Unrecorded Disposal                  LOMO-3851               74,607.52        31,956.88
Unrecorded Disposal                  LOMO-3934                3,560.00         2,435.63
                                                                         $236,172,651.1
Total Unrecorded Disposals                 33          $293,602,948.85                0
Duplicate             Albuquerque    COCHIT-6153        $ 816,410.54     $ 558,495.95
Duplicate             Fort Worth     RR-29056               540,652.86       498,399.78
Duplicate                            RR-29108               125,779.79       104,215.90
Duplicate                            RR-29114               125,779.79       104,215.90
Duplicate             Kansas City    HST-31563               10,188.30         8,354.13
Duplicate                            HST-31572                6,082.57         4,987.58
Duplicate                            LNGVW-28471             82,207.21        37,230.81
Duplicate             Little Rock    ARLD13-48781*           82,382.18        37,071.05
Duplicate             Vicksburg      L&D02-14892             48,379.48        44,105.74
Never Constructed     Fort Worth     CO-38972                77,757.00        66,741.42
Never Constructed                    CO-39077                97,569.86        90,496.03
Never Constructed     Kansas City    LNGVW-28414             64,516.65        44,294.84
Never Constructed                    LNGVW-30823          2,025,806.30     1,677,994.74
Never Constructed     Portland       BONNE-6310                 255.00           180.78
Never Constructed                    BONNE-9658             132,964.18        80,415.40
Never Constructed                    BONNE-10543            171,218.93       100,941.98
Never Constructed                    BONNE-10593            516,964.96       304,776.06
Never Constructed                    LOSTC-9735               2,000.00         1,179.09
Never Constructed                    LOSTC-9736               2,000.00         1,179.09
Never Constructed     St. Louis      BB151-6885              27,360.00        17,236.57

Never Constructed      Seattle       LBDLKO-16353*          400,000.00         282,437.96

Never Constructed                    LBDLKO-16357*           40,000.00          28,243.77
Total Duplicate and Never
Constructed                                22            $5,396,275.60    $4,093,194.57
Unassigned Costs       Little Rock   NRFORK-50250       $ 1,676,075.81   $   911,436.45
Unassigned Costs       Mobile        TTDIVI-27800           652,139.10       558,665.83
Unassigned Costs       Savannah      RBR-18640            2,729,364.79     2,664,202.34
Unassigned Costs       Vicksburg     L&D01-11482             35,939.61        33,453.72
Unassigned Costs                     L&D01-11498             27,536.62        23,727.33
Unassigned Costs                     L&D01-17358          1,554,663.09     1,496,361.09
Unassigned Costs                     L&D01-18770          2,395,461.26     2,353,538.97
Unassigned Costs                     L&D02-11467         54,935,860.73    18,536,677.90
Unassigned Costs                     L&D02-11469            199,131.50       174,239.83
Unassigned Costs       Walla Walla   LOMO-5636              707,006.85       468,392.04
                                                                                      $
Total Unassigned Costs                      10         $ 64,913,179.36    27,220,695.50
                                                                         $267,486,541.1
  Total Physical Existence                  65         $363,912,403.81                7




                                          19
       Table D-2 identifies the 71 property identification codes that failed the existence
       testing because of errors related to their classification. These property
       identification codes failed because they should have been classified as
       construction in progress, equipment, land and improvements to land, or
       stewardship assets.

                                Table D-2. Classification Test
                                                             Misstated        Misstated
       Cause              District         Property ID      Book Cost        Book Value
Construction in
Progress            Seattle             LBDLKO-16308       $1,212,893.94        $ 856,418.20
Construction in
Progress                                LBDLKO-16311        3,000,000.00         2,118,284.60
Construction in
Progress                                LBDLKO-16324           18,000.00            12,709.71
Construction in
Progress                                LBDLKO-16340           30,000.00            18,991.89
Construction in
Progress                                LBDLKO-16344          500,000.00           353,047.44
Construction in
Progress                                LBDLKO-16379           40,000.00            23,241.73
Construction in
Progress            Walla Walla         LOMO-6841              53,231.00            53,053.56
Construction in
Progress                                LOMO-6842*             46,530.25             46,375.15
Total Construction in Progress Assets         8            $4,900,655.19        $3,482,122.28
Equipment           Kansas City         HST-29594            $ 6,277.21            $    749.07
Equipment                               HST-29625               6,277.21                749.07
Equipment                               HST-29738               6,277.21              1,879.70
Equipment                               HST-29753               6,277.21                749.07
Equipment           Omaha               SHARP-22884           187,538.02           127,670.56
Total Equipment Assets                        5              $212,646.86          $131,797.47
Land Improvements   Fort Worth          CO-32073*     $ 1,536,876.33        $    1,430,575.72
Land Improvements                       RR-29123          507,727.22               427,337.04
Land Improvements   Huntington          KAORDB-23655      104,462.01                57,452.81
Land Improvements   Kansas City         MORIVR-37013    2,854,507.51             1,155,947.52
Land Improvements   Little Rock         NRFORK-45164       19,242.13                18,408.25
Land Improvements   Mobile              TTWILD-27604*   7,217,258.14             6,127,461.49
Land Improvements   Portland            LOSTC-8763*     5,868,766.33             2,754,720.38
Land Improvements   St. Louis           CB562-7116        203,759.00                99,839.92
Land Improvements   Savannah            RBR-16915         453,155.82               412,670.77
Land Improvements   Walla Walla         MILLC-3807         43,932.11                26,103.00
Land Improvements                       MILLC-3835*       249,975.96               226,228.25
Land Improvements   Wilmington          FAL-15886       3,469,405.00             3,105,114.84
Land Improvements                       FAL-18493      10,090,286.70             7,012,739.60
Land Improvements                       FAL-18749       5,496,398.00             4,534,523.84
Land Improvements                       FAL-19328       4,564,730.00             3,514,826.79



                                            20
   Total Land Improvements                         15         $42,680,482.2      $30,903,950.22
                            Table D-2. Classification Test (cont’d)
                                                              Misstated          Misstated
       Cause                District       Property ID        Book Cost         Book Value
Reservoirs           Fort Worth         CO-29178            $ 9,630,788.13      $ 8,547,324.44
Reservoirs                              RR-29121               9,692,104.45       8,178,581.72
Reservoirs           Huntington         BSAYBC-24350           1,811,850.11       1,271,295.80
Reservoirs                              KAORDB-24341             749,087.85         526,850.54
Reservoirs                              KAORDB-50397             231,127.24         229,151.80
Reservoirs           Kansas City        HST-36988             20,714,613.76      15,794,359.81
Reservoirs                              KNOPLS-36958             206,632.60          86,604.43
Reservoirs                              LNGVW-36979            1,596,549.57       1,303,810.20
Reservoirs                              PERRY-36968              643,408.04         382,807.09
Reservoirs                              SHARP-22947            4,042,954.62       2,752,332.03
Reservoirs                              SMTHVL-36973           2,657,562.38       2,037,396.52
Reservoirs           Mobile             TTCANA-27775           6,005,693.44       5,575,285.41
Reservoirs           Nashville          JPP-16454              2,149,078.75         986,746.03
Reservoirs           Pittsburgh         YOUGH-16548              403,000.00         343,219.24
Reservoirs           Portland           LOSTC-9611             5,512,805.81       3,638,398.31
Reservoirs           St. Louis          BB151-9091             1,383,908.00       1,127,882.81
Reservoirs           Savannah           RBR-18103             21,659,345.58      21,192,878.51
Reservoirs                              RBR-26228                997,226.05         988,904.55
Reservoirs           Seattle            LBDLKO-16037          10,381,235.02       8,022,220.45
Reservoirs           Tulsa              ARCADI-44911           2,475,934.88       2,092,323.34
Reservoirs                              GRSALT-43883              39,670.53          19,319.04
Reservoirs           Vicksburg          L&D01-19265            2,922,730.09       2,917,858.87
otal Reservoirs                                  22        $105,907,306.90      $88,015,550.94
otal Land Assets                                 37        $148,680,482.26     $118,919.501.16
Stewardship Assets   Huntington         ORLRCB-23583          $8,294,470.28      $5,709,271.36
Stewardship Assets                      ORLRCB-23584*          1,272,392.59         875,816.77
Stewardship Assets                      MORIVR-37018         234,923,627.30      95,133,532.46
Stewardship Assets   Little Rock        AR/LD2-55422             981,669.31         935,037.16
Stewardship Assets   Savannah           RBR-17287                   2,500.00           1,878.22
Stewardship Assets                      RBR-17291                   5,000.00           3,756.53
Stewardship Assets   St. Louis          BB151-6905             6,148,958.00       5,040,730.65
Stewardship Assets   Vicksburg          L&D01-10353          100,761,916.66      81,113,342.93
Stewardship Assets                      L&D01-18791            2,009,352.87       1,974,187.81
Stewardship Assets                      L&D01-18792            1,629,593.11       1,601,074.18
Stewardship Assets                      L&D01-19062              498,121.19         494,385.29
Stewardship Assets                      L&D02-8514               236,180.79         219,450.90




                                              21
                             Table D-2. Classification Test (cont’d)
                                                               Misstated           Misstated
         Cause               District       Property ID        Book Cost          Book Value
Stewardship Assets                       L&D02-11468            1,105,603.31        1,042,029.59
Stewardship Assets                       L&D02-18980            2,336,406.91        2,313,042.79
Stewardship Assets                       L&D02-18981            1,299,085.65        1,286,094.81
Stewardship Assets                       L&D02-19060            3,666,572.15        3,639,072.83
Stewardship Assets      Walla Walla      GRANT-5352                12,000.00             8,620.00
Stewardship Assets                       GRANT-5355                  4,500.00            3,217.50
Stewardship Assets                       LOMO-3918                 17,141.40           12,527.51
Stewardship Assets                       IHRBR-4160                29,723.58           21,475.29
Stewardship Assets                       MILLC-3831             1,800,870.30          733,854.64
otal Stewardship Assets                            21       $367,035,685.40      $202,162,399.22
     Total Classification                          71       $520,736,776.61      $324,695,820.13


           Table D-3 identifies the 12 property identification codes that failed the existence
           testing because of physical impairments to the assets.

                                    Table D-3. Impairment Test
                                                            Book Cost           Book Value
         Cause             District         Property ID      Misstated           Misstated
   Impairments      Albuquerque          COCHIT-6154           $233,999.97        $177,399.98
   Impairments      Fort Worth           CO-38924                 8,783.30            7,735.07
   Impairments                           CN-27138                49,808.32           30,632.09
   Impairments                           CN-27144                49,808.32           30,632.09
   Impairments                           CN-27315                84,928.71           53,505.07
   Impairments      Kansas City          HST-29762               16,727.15           10,647.84
   Impairments                           HST-31551                8,758.89            6,897.37
   Impairments      Little Rock          ARLD13-43029            25,562.68           18,532.91
   Impairments      St. Louis            CB562-7174               8,247.79            6,144.60
   Impairments      Tulsa                HUGO-43815              77,996.92           35,098.62
   Impairments                           HUGO-43856              28,299.96           12,734.98
   Impairments      Walla Walla          IHRBR-4301*             10,414.26            5,884.05
     Total Impairments                          12             $603,336.27        $395,884.67




                                                22
      Table D-4 identifies the 16 property identification codes that failed the existence
      testing because the structures were not being used for their intended or another
      legitimate purpose.

                                Table D-4. Usefulness Test
                                                        Book Cost        Book Value
      Cause            District         Property ID      Misstated        Misstated
Not In Use      Fort Worth           RR-26261            $ 31,330.91      $ 26,416.26
Not In Use                           RR-29078                43,863.27        40,435.26
Not In Use                           RR-29089               250,674.08       227,448.91
Not In Use      Huntington           KAORDB-23613            31,338.60        24,130.45
Not In Use      Kansas City          HST-29705               50,716.42        14,172.47
Not In Use                           PERRY-29448             48,219.93        11,481.97
Not In Use      Little Rock          AR/LD2-42606            70,040.51        62,686.12
Not In Use                           GILHAM-44694            82,262.59        55,663.75
Not In Use                           GILHAM-44701            45,371.35        31,835.21
Not In Use                           GILHAM-44707            80,011.83        21,601.76
Not In Use      Portland             LOSTC-7221               8,000.00         4,716.42
Not In Use                           LOSTC-8086              46,178.70        35,546.68
Not In Use      Savannah             RBR-17301            1,063,636.49       962,879.11
Not In Use                           RBR-17617                3,208.90         2,956.97
Not In Use      Tulsa                HUGO-43824              38,708.15        17,418.67
Not In Use                           HUGO-43826           1,048,840.64       760,409.46
 Total Not in Use                        16            $2,942,402.37     $2,299,799.47




                                           23
Appendix E. Retirement Cycle of Structures
   Engineer Regulation 405-1-12, “Real Estate Handbook,” chapter 11, “Disposal,”
   November 1985, provides authority, responsibility, methods, and guidance for the
   performance of real property disposal functions. The steps to retire and dispose
   of a structure are displayed in the following flowchart.



                                    Field personnel
                                    determine the
                                    structure requires
                                    retirement or
                                    disposal.




                               Disposal request, DA
                               Form 337 or equivalent, sent
                               to district real estate office.




                                    District                     Disapproves
                                    Commander or                                       Action stops.
                                    chief of real estate
                                    reviews request.



    Copy of approval sent to                      Approves
                                                                               Report of excess
    field to begin disposal
                                                                               prepared and sent
    action; copy sent to
                                                                               to General
    Resource Management.
                                                                               Services
                                                                               Administration for
                                                                               disposal of assets
                                                                               with a fair market
                                                                               value over $1,000.
    Finance and Accounting
    personnel change
    property phase code in
    CEFMS from in-service
    (“S”) to retired (“R”).




                                             24
Appendix F. COEMIS to CEFMS Conversion
            Process
   USACE districts converted the financial records from COEMIS to CEFMS from
   1994 to 1998. COEMIS tracked costs by feature codes such as land, dam, and
   recreational facilities. When USACE implemented CEFMS, the records were
   detailed to the individual structures. To enter existing costs into CEFMS, districts
   personnel allocated COEMIS costs to specific structures. USACE headquarters
   issued two memoranda “Procedure for Reconciling Real Property Inventory With
   Accounting General Ledgers and Cost Records for Civil Works Projects,” May 9,
   1994, and “Procedures for Work Group Reconciliation of Real Property Inventory
   to Finance and Accounting Records,” June 30, 1994, to assist districts in the
   reconciliation process. The following chart displays this process.

                  Finance and                    Real estate
                  Accounting                     personnel obtain a
                  personnel prepare a            complete and
                  summary of                     current inventory.
                  capitalized COEMIS             (Excludes items
                  project costs by               removed from
                  feature of work.               service.)



                   Personnel gather support based on historical data,
                   cost estimates using master plans, similar
                   structures, and the Marshall Swift book, in that
                   order.




                   Real Estate and Finance and Accounting
                   personnel assign feature cost to each item on the
                   inventory.



                             Total every item by feature
                             and compare to Finance and
                             Accounting feature totals.




                                           A




                                          25
Appendix F. COEMIS to CEFMS Conversion
            Process (cont’d)

                        A




                  Are the totals   No
                  equal?
                                         Determine the percent
                                         of difference between
                                         costs.



                 Yes
                                        Increase the cost of
                                        inventory items by the
                                        appropriate percentage.



                 Verify data,
                 sign and date
                 the inventory.




                       26
Appendix G. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Civil Works)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Subcommittee on Energy and Water Development, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Committee on Energy and Natural Resources
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Subcommittee on Energy and Water Development, Committee on Appropriations
House Committee on Armed Services
House Committee on Energy and Natural Resources
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform



                                          27
U.S. Army Corps of Engineers Comments
                                        Final Report
                                         Reference




                                        Revised
                                        Pages 2, 5,
                                        11, and 18




                                        Revised
                                        Pages 8, 9,
                                        and 20




                     29
30
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.

Paul J. Granetto
Barbara A. Sauls
Carmelo G. Ventimiglia
George C. DeBlois
Michael Perkins
Dennis L. Conway
Cheri D. Givan
Sean J. Keaney
Ryan W. Pusey
Woodrow W. Mack
Jeffrey D. Marshall
Craig W. Zimmerman
William H. Zeh
Matthew F. Bengs
Yalonda N. Blizzard
Leon D. Bryant
Bradley D. Grubb
Melissa J. Humerickhouse
Trisha L. Kaseler
Calvin O. King
Steven Kohne
Scott C. Kontor
Chelsea D. Pickens
Wilfredo Romero-Torres
Vivien Seumsouk
Kenneth A. Weron
Nathan R. Witter
Brian L. Zimmerman
Ann Thompson
Frank Sonsini
H. David Barton
Kandasamy Selvavel
